LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 10, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-1099: CITY OF BAKERSFIELD, AARON STRINGER V. LESLIE LARAY CRAWFORD
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on July 10,
2020, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020 on the following counsel for the Respondent:
RESPONDENT:
Emily T. Kuwahara, Esq.
CROWELL & MORING LLP
515 South Flower St., 40th Floor
Los Angeles, CA 90071
Email: EKuwahara@crowell.com
Ben J. Meiselas, Esq.
GERAGOS & GERAGOS
644 South Figueroa Street
Los Angeles, CA 90017-3411
Email: ben@geragos.com
This service was effected by depositing one copy of the Reply Brief in Support
of Petition for a Writ of Certiorari in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 10th day of July 2020.

